  CORPORATION FOR PUBLIC BROADCASTING

       OFFICE OF INSPECTOR GENERAL




AUDIT OF UNDERWRITING AND IN-KIND CONTRIBUTIONS
  REPORTED AS NON-FEDERAL FINANCIAL SUPPORT
             AT SELECTED GRANTEES
              FOR FISCAL YEAR 2013



             REPORT NO. ACJ1405-1410



                September 30, 2014
           o requirements that goods and services need to be purchased if not donated;
           o receipt of contributions by third parties for the benefit of public broadcasters
             when stations do not take constructive receipt of the full donation; and
           o excluding presenting fees as NFFS; and

      CPB should evaluate the practicality of continuing to allow stations to claim in-kind
       trades as NFFS given the historical and continuing challenges in valuing trades and
       documenting that trades were received by the stations.

We recommend CPB management take the following actions:.

      Require stations to submit revised FY 2013 AFRs adjusting overstated NFFS per
       Exhibits B and C.

      Reduce FY 2015 CSG payments based on receipt of revised FY 2013 AFRs and
       redistribute estimated overpayments of $46,167.

      Clarify the current Guidelines to address:
          o documenting receipt and value of in-kind trades;
          o claiming exclusive event sponsorships;
          o goods and services purchased if they were not donated:
          o receipt of contributions by third parties for the benefit of public broadcasters
               when stations do not take constructive receipt of the full donation; and
          o excluding presenting fees as NFFS.

      Evaluate the practicality of continuing to allow stations to claim in-kind trades as
       NFFS given the historical and continuing challenges in valuing trades and
       documenting that trades were received by the stations.

In response to the draft report, some stations’ expressed disagreement on items questioned for in-
kind trades and how third party recipient receipts should be handled, but there was general
agreement that CPB’s Guidelines need to be clarified as we recommended. The grantee’
responses to the draft report are presented in Exhibits D-I. Additionally, we continued to accept
documentation of in-kind trades up until finalization of the report. Our finding on Questionable
In-kind Contributions includes all additional information received.

We initiated this audit based on our Annual Plan. We performed our audit in accordance with
Government Auditing Standards for performance audits. Our scope and methodology is
discussed in Exhibit A.

Recommendations 1-7 were directed to CPB management and are unresolved, pending CPB’s
final management decision resolving the report’s recommendations. The findings and
recommendations contained in this report do not necessarily represent CPB management’s final
position on these matters. CPB management will make a final management decision on the
recommendations in accordance with CPB’s audit resolution procedures.




                                                 2
                                               BACKGROUND

Our past audits of Community Service Grants (CSGs) awarded to stations have often found
overstated NFFS related to reporting ineligible underwriting and in-kind contributions, as well as
undocumented in-kind trades. The accurate reporting of NFFS is critical for the equitable
distribution of the CSG funds to public broadcasters. Each year stations are required to submit
and certify an Annual Financial Report (AFR) to CPB prepared following CPB’s guidelines,
which identifies eligible NFFS received by the station during the fiscal year. The station’s
independent public accountant (IPA) also conducts an annual financial statement audit and a
separate attestation examination of the AFR using the American Institute of Certified Public
Accountants standards for attestation examinations. Based on the IPA’s audit and attestation
examination, the IPA certifies directly to CPB that the AFR and reported NFFS are compliant
with the Guidelines.

Since OIG audits of individual stations are time consuming to perform, to maximize our limited
resources we undertook this audit to look at a greater number of stations but limited our focus to
only audit underwriting and in-kind contributions reported as NFFS. We analyzed CPB’s
records of NFFS reporting to identify stations that reported large amounts of underwriting and
in-kind contributions. We further narrowed our scope to focus on underwriting received from
foundations, non-profits, business, and industry at stations that had not been recently audited by
the OIG. We judgmentally selected the following six stations to conduct a limited scope audit of
NFFS reported for underwriting and in-kind contributions.

                                       FY 2013 NFFS Reporting

                                                       AFR Schedule A - Underwriting

                                                Foundations /   Business &                       AFR Schedule
                                  Fiscal Year    Non-profits     Industry       Total Lines       C, In-kind
              Stations            Ending Date    Line 8.1.A     Line 9.1.A     8.1.A & 9.1.A        Line 4


   KCRW-FM                         6/30/2013       $1,442,259     $3,801,640      $5,243,899        $3,237,672
   ideastream®:                    9/30/2013
    WVIZ-TV                                         1,201,714       651,774        1,853,488          401,041
    WCPN-FM                                           317,490      2,630,055       2,947,545          137,211
   KLRU-TV                         9/30/2013          227,436      1,248,799       1,476,235          606,912
   KPCC-FM                         6/30/2013       $1,210,313      2,501,115       3,711,428         1,341,724
   KOCE-TV                         6/30/2013                0      1,149,569       1,149,569         1,084,037
   Brigham Young University:      12/31/2013
    KBYU-TV                                        13,370,319      1,104,932      14,475,251          281,267
    KBYU-FM                                           256,393         70,670           327,063           8,374
               Total                              $18,025,924    $13,158,554     $31,184,478        $7,098,238

   NFFS Claimed by All Stations
   in FY 2013                                    $119,019,994   $231,339,210    $350,358,244       $55,491,244
         % Universe Tested                         15.1%           5.7%            8.9%             12.8%



                                                      3
Our sample included two joint television and radio stations, two radio stations, and two
television stations. Additionally, two of these stations are institutional stations and four are
community stations.

CPB’s annual awards of CSG grants to public television and radio stations are based on the
amount of NFFS claimed by all stations on their AFRs. The CSG calculation process starts with
separate amounts appropriated for the television and radio CSG pools, adjusted by the amount of
the base grant. The TV CSG pool is also adjusted by distance and local service grants and the
Radio CSG pool is adjusted by rural support grants. The funds that remain are called the
Incentive Grant Pools, one is for television and the other is for radio. The Incentive Rate of
Return (IRR) is calculated by dividing the Incentive Grant Pools by the total weighted amount of
NFFS claimed by all television/radio stations eligible to receive incentive grants. The IRR is
then multiplied by the station’s reported NFFS to calculate the incentive award amount of the
station’s total CSG. There is a two-year lag between the reported NFFS and CPB’s calculation
of the FY’s CSG amount. For example, CPB will use the NFFS reported on FY 2013 AFRs to
determine the amount of the CSG the stations will receive in FY 2015.

                                       RESULTS OF REVIEW

Based on our limited scope audit of selected underwriting categories and in-kind contributions
reported as NFFS, we identified a high rate of non-compliance with CPB financial reporting
requirements for in-kind contributions. Additionally, we found ineligible in-kind contributions
and underwriting. We attribute these conditions to stations not fully understanding CPB’s
requirements for underwriting and in-kind trades. Further, CPB’s Guidelines could more clearly
explain requirements to facilitate improved compliance.

Specifically, our audit found:

          a general lack of compliance with CPB’s Guidelines resulting in stations over-stating
           NFFS by $671,046 ($413,569 for in-kind contributions and $257,477 in underwriting)
           which will result in estimated CSG overpayments of $46,167 ($29,510 for in-kind
           contributions and $16,657 in underwriting) in 20152 classified as funds put to better use
           for reporting purposes;

          CPB’s Financial Reporting Guidelines need to clarify current guidance regarding:
             o documenting in-kind contributions and valuing goods and services at time of
                 donation;
             o valuing exclusive sponsorships when usual and customary fees were not
                 established;
             o requirements that goods and services need to be purchased if not donated;
             o receipt of contributions by third parties for the benefit of public broadcasters
                 when stations do not take constructive receipt of the full donation; and
             o excluding presenting fees as NFFS; and



2
    See footnote 1.


                                                    4
       CPB should evaluate the practicality of continuing to allow stations to claim in-kind
        trades as NFFS given the historical and continuing challenges in valuing trades and
        documenting that trades were received by the stations.

                             FINDINGS AND RECOMMENDATIONS

Questionable In-kind Contributions

        Summary

Our audit of in-kind contributions found a general lack of compliance with CPB’s Guidelines
and a misunderstanding of CPB’s requirements for documenting in-kind revenues as NFFS in
five of six stations tested. Initially, our testing identified a total of 46 of 78 transactions (58.9
percent) that did not comply with CPB Guidelines for NFFS reporting. These noncompliant in-
kind transactions were valued at $2,499,826 or 43 percent of the $5,826,421 reported for the 78
transactions tested. This is a significant non-compliance rate.

We reduced the 46 non-compliant transactions to 12, because three stations requested and
obtained additional documentation from their donors on trades provided during FY 2013. As a
result, 12 of the 78 in-kind trades (15 percent) valued at $413,569 remain questionable. For six
of these transactions stations did not adequately document contributions received from donors
for in-kind trades/sponsorships and six additional transactions did not qualify for NFFS for
policy reasons, including two exchange transactions. These 12 questionable in-kind trades will
result in estimated FY 2015 CSG overpayments of $29,510 as calculated in Exhibit B and
presented below.

                                           In-Kind Transactions

                                                     Number       Questionable    Potential CSG
                      Category                     Transactions     NFFS          Overpayments
    Lack of documentation evidencing valuation
    and receipt of goods and services                   6               $49,991           $3,907
    Excluded by policy --- promotional items           4                322,078           21,172
    Excluded by policy --- exchange transactions        2                41,500            4,431
                        Total                          12              $413,569          $29,510

While the final questionable NFFS was reduced during our fieldwork, the 15 percent non-
compliance rate for the 12 transactions questioned is still high and warrants CPB’s attention to
clarify expectations and ensure compliance with its Guidelines going forward.

Based on our testing, station officials and their IPAs, that attested to the accuracy of the station’s
AFRs, did not clearly understand what was allowable to be claimed as NFFS and how it needed
to be documented to meet CPB’s Guidelines. More specifically, how they needed to document
in-kind trades to address GAAP requirements to value trades at the time of donation and CPB’s
documentation requirements to evidence that donors have subsequently provided the goods and
services identified in the trade agreements.




                                                      5
       Insufficient Documentation of In-kind Trades

While we questioned $49,991 because the documentation provided by three stations for 6 of the
78 in-kind trades tested (8 percent) did not comply with CPB’s Guidelines, our initial fieldwork
identified $2,136,248 in questionable NFFS for 40 of 78 transactions (51 percent) because of
inadequate documentation of in-kind trades received. Specifically, the stations did not have a
letter or an invoice from the donors documenting delivery of the trade items, as well as the value
for the goods and services received, as required by CPB Guidelines Section 2.6.4. Subsequently
the stations provided documentation to evidence 34 of the 40 trades, reducing the number of
trades not documented as required by the Guidelines to six.

While stations did not initially obtain the documentation required by CPB Guidelines, for many
of the trades tested the stations provided only “PDF computer images” and other similar
documentation demonstrating that selected goods and services agreed to in the signed trade
agreement were delivered. These images evidenced event signage, Internet recognition, posters,
photos of the events, banners, theatre programs, playbills, copies of magazines, and newspaper
ads. These images also identified the stations as event sponsors or provided information about
the stations’ programming. However, this documentation did not meet CPB’s specific
documentation requirements, which provide:

   Generally accepting accounting principles (GAAP) require that grantees record all
   significant contributed support at fair value at the time of donation, provided there is a
   clearly measurable and objective basis for determining the value.

CPB Guidelines, Section 2.6.3, Valuation Criteria for In-kind Contributions [emphasis added].

   Trade underwriting agreements or contracts do not satisfy CPB’s documentation
   requirements for in-kind contributions claimed as NFFS. A trade underwriting agreement
   is a promise to give that confirms only the intent to trade an in-kind contribution; it does
   not demonstrate that an in-kind contribution was actually received by the station.
   Instead, Grantees need to secure and retain documentation from the underwriter that is
   tantamount to a receipt for the goods or services it received and claimed as NFFS. In
   order to satisfy CPB’s documentation requirement the documentation must originate from
   the donor and it must contain the following elements:

   •   Documentation must be on formal business stationary or an invoice that prominently
   displays donor’s name, address and other identifying characteristics (e.g., business logo,
   etc.).
   •   Documentation must contain:
          •   description of the goods and services donated;
          •   the date(s) of donation;
          •   the value of the donated goods or services and the method of valuation (e.g.,
              lawyer’s hourly rate x hours worked);
          •   explicit statement of the donors intent to donate or trade the goods or services;
              and
          •   signature, name, and title of the donor or donor’s representative.



                                                 6
Guidelines, Section 2.6.4, Documentation Criteria for In-kind Contributions.

After explaining the CPB requirements to station officials, three stations contacted their donors
and obtained alternative documentation to evidence 34 of the 40 trades that were not initially
documented as required by the Guidelines. This alternative documentation included invoices or
letters from the donors dated in 2014, while the trades occurred in 2012 and 2013. Based on the
alternative documentation, we subsequently accepted 34 trades because the stations had
ultimately received donor evidence that they had satisfied their trade agreements. As a result, we
questioned $49,991 in reported NFFS for these transactions that will result in $3,907 in estimated
CSG overpayments, as summarized in Exhibit B.

While we ultimately questioned only six of these transactions, the high level of non-compliance
we found initially, 51 percent (40 of 78 transactions), is significant. This rate of noncompliance
highlights the challenges stations experience interpreting and complying with CPB’s
requirements for in-kind trades and the need to revisit CPB’s procedures for in-kind trades.

       In-Kind Contributions Excluded from NFFS for Policy Reasons – Promotional Items

Our audit also found 4 of the 78 transactions tested, valued at $322,078, were ineligible for
NFFS for policy reasons per CPB’s Guidelines. These trades did not qualify as NFFS because
the stations received promotional items excluded by CPB’s Guidelines.

For one transaction, a hotel provided 50 percent off tickets to its exhibit and 10 percent off
dining and tours for station members for one year. The hotel also hosted a screening of Downton
Abbey. At the screening the hotel provided 250 tickets to its exhibit, food, beverages, and
complimentary parking for the attendees invited by the station, as well as a VIP luncheon for 80
of the station’s guests.

In another trade, the station received the use of a local theatre for a VIP preview of segments of a
documentary to be aired at a later date. Station personnel explained that it invited its members to
this screening. The theatre provided use of its theatre and supplied the staff needed to conduct
the preview. This event, that included hors d’oeuvres, wine, coffee, and a behind-the-scenes
discussion by the filmmaker, was a promotional event and not eligible as NFFS.

In a third trade, the station received tickets and parking to an amphitheater valued at $197,786.
Station management told us that similar in-kind contributions were received from a number of
underwriters and often included tickets and parking to local area events. These tickets were
given to members through radio call in contests.

For the last trade, the station received hoodies, and t-shirts, valued at $100,000, for membership
fundraising purposes. Station officials told us that the clothing was given to new members as
appreciation gifts for becoming members and making donations. All four stations did not
believe these trades were for promotional purposes.

However, CPB excludes all of these items from NFFS and states:




                                                 7
   Promotional Items – Donated promotional items such as tickets to performances, t-shirts,
   mugs, mouse pads, dinners or other events, given to listeners or the general public as
   incentives to listen longer or more often to the station or to increase station audience
   awareness are not eligible as NFFS.

CPB Guidelines, Section 2.4.2 – In-Kind Contributions Excluded from NFFS for Policy
Reasons.

Based on CPB’s policy restrictions we questioned $322,078 claimed as NFFS for four trades
involving promotional items that will result in $21,172 in estimated CSG overpayments as
summarized in Exhibit B by station.

       In-Kind Contributions Excluded from NFFS for Policy Reasons - Exchange
       Transactions

Our testing identified two transactions, valued at $41,500, for contributions in quid pro quo
transactions (exchanges) that CPB has excluded from NFFS reporting for policy reasons. These
trades did not qualify as NFFS because the station exchanged something of value other than
underwriting for in-kind contributions. CPB’s Guidelines prohibit reporting these types of
transactions as NFFS.

   Contributions in quid pro quo transactions – If the station exchanges something of value
   other than underwriting for an in-kind contribution, then the fair value of what the station
   gives the contributor must be deducted from the fair value of the contribution received to
   determine the NFFS value of the transaction. There is only NFFS value in the transaction
   if the fair value of the contribution received by the station is greater than the fair value of
   any goods or services the station gives in return to the donor.

CPB Guidelines, Section 2.4.2 – In-Kind Contributions Excluded from NFFS for Policy
Reasons.

For example, in one transaction the station received a lump sum payment, monthly payments,
and credits on products and services from a wireless company in exchange for its purchase of
excess spectrum capacity from the station. Moreover, we found no explicit statement in the
agreement with the station that the wireless company intended to donate its payments and
monthly credits of goods and services to the station.

In another quid pro quo transaction the station provided office space to a local business and
received 500 hours of labor for various services (e.g., data archiving, digitalization, grant
writing) in exchange for the office space. Further, we found no documentation that the donor
actually provided the 500 hours of volunteer services identified in the agreement.

In accordance with CPB policy, we questioned $41,500 for these two quid pro quo transactions
(exchanges) claimed as NFFS that will result in $4,431 in estimated CSG overpayments as
summarized in Exhibit B by station.




                                                 8
       Challenges Documenting In-Kind Trades per Policy

CPB’s Guidelines recognize the historical difficulty associated with documenting in-kind trades.
CPB’s 1996 Simplification Project resulted in the elimination of many in-kind services. These
services were difficult to value or presented burdensome documentation requirements that were
disproportionate to the benefits received by many stations. The objective of the project was to
simplify NFFS reporting and to establish equity in the distribution of grant funds.

While CPB’s past simplification efforts are laudable it appears more needs to be accomplished in
this area. In addition to the previous findings, our audit identified other problems in interpreting
and complying with CPB requirements for documenting in-kind contributions; specifically,
verifying donor valuations of in-kind donations and whether the station would have purchased
the donated goods and services if they were not donated.

       Verifying Donor Valuations

Our audit identified eight trades at two stations valued at $579,150 for which we could not
independently verify the donor’s valuations. More specifically, we could not confirm that the
valuations were the usual and customary fee charged by the donor to a paying customer. While
the trades were associated with the donor’s promotional business practices, these trades were
either for exclusive or other sponsorships for entertainment events for which the donor
established the value of the trade. One station in our sample did its own valuation of the in-kind
trades when the donor had not established a fee structure for its sponsorship. That station valued
the trade based on its own experience in sponsoring events, which was often less and never more
than the donor’s valuation. None of this station’s trades were included in the eight trades
referenced above.

CPB requires:

   . . . the donor’s usual and customary fee charged to a paying customer for equivalent
   services must serve as the basis for determining fair value. If the donor is not actively
   engaged in selling the same or similar goods or services to entities other than the station a
   value may not be assigned to their contributions for NFFS purposes. . . .

CPB’s Guidelines Section 2.6.3

Section 2.6.6 of the Guidelines explains that the grantee should record the fair value of the in-
kind contribution based on the donor’s/sponsor’s valuation. We did not question these
transactions, because the trade values were based on the donors’ certifications of the values.
However, exclusive sponsorships by their very nature are not available to other organizations and
CPB should consider whether this type of sponsorships should be specifically excluded as NFFS
when not supported by a publicized sponsorship structure.




                                                 9
       Validating Whether In-Kind Transactions Would Have Been Purchased

Our audit found one in-kind trade of $693,600 NFFS for advertising provided by a metropolitan
transportation service. This one transaction represented 21.4 percent of the total in-kind trades of
$3.2 million claimed by the station. Because of the large trade, we asked station personnel if the
station would have purchased the advertising if it were not donated. They initially indicated to
us that they could not afford the advertising if it were not donated. However, they subsequently
told us that the station definitely could have and would have purchased the advertising if not
donated. They provided evidence where they purchased $50,000 in advertising from a well-
known entertainment advertising agency to support its claim that the station would have
purchased the advertising.

CPB requires that the station would have paid for the trade:

   To be eligible as NFFS an in-kind contribution must meet the appropriate source, form,
   purpose, and recipient criteria. Additionally, a contributed good or service must be
   provided for normal, standard activities of the grantee. If services are provided for
   activities that are normal and standard, but the grantee would not pay for them, do not
   include them. This criterion is modeled on SFAS 116, paragraph 9, which requires that
   donated services not only would have been purchased, but would “need to be purchased,”
   if they were not donated.

CPB’s Guidelines, Section 2.6.5 Goods and Services that Would Be Purchased If Not Donated

While this section of the Guidelines is clear, there is no clear method for determining whether
the advertising would have been purchased. CPB has to rely on a station’s self-certifications of
its compliance with this requirement, which we cannot independently verify. Further, it is
difficult to know how a station could reasonably document such decisions. For these reasons we
accepted the $693,600 claimed for advertising.

                                *    *     *     *     *    *     *

As noted, CPB’s 1996 Simplification Project attempted to address concerns over in-kind
contributions by eliminating hard to value in-kind contributions. Our results show that 58.9
percent of the transactions tested did not initially comply with CPB’s Guidelines for reporting
NFFS. When we add to this figure the additional 9 valuation transactions discussed under the
Challenges Documenting In-kind Trades per Policy section of this report, and the difficulty
determining whether contributions would have been purchased if not donated, we have a total of
55 in-kind transactions, or more than 70 percent of the 78 transactions tested, that were
problematic. These issues highlight the challenges experienced dealing with in-kind trades for
the stations, its independent auditors, and the OIG in auditing the reporting of in-kind
contributions. Personnel at one station said that because of the extensive paperwork and
documentation requirements the station was considering eliminating reporting smaller trades.

Our audit found CPB’s in-kind policy and documentation requirements to be extensive and less
than clear. CPB should evaluate the practicality of continuing to allow stations to claim in-kind



                                                10
trades as NFFS given the historical and continuing challenges in valuing trades and documenting
that trades were received by the stations.

       Recommendations

We recommend CPB officials:

       1) require stations to submit revised FY 2013 AFRs adjusting overstated NFFS per
          Exhibits B.
       2) reduce FY 2015 CSG payments based on receipt of revised FY 2013 AFRs and
          redistribute estimated overpayments of $29,510.
       3) evaluate the current Guidelines to:
          a) clarify when in-kind donations have to be documented by donors evidencing
              that they delivered promised goods and services with valuation information;
          b) determine whether donors’ valuations of exclusive event sponsorships claimed
              as in-kind trades satisfy CPB’s requirements to value the sponsorship at the
              usual and customary fees charged to a paying customer; and
          c) determine whether CPB should continue to highlight GAAP requirements in
              its Guidelines that donated services not only would have been purchased, but
              would “need to be purchased,” if they were not donated, when such decisions
              cannot be independently verified.
       4) evaluate the practicality of continuing to allow stations to claim in-kind trades as
          NFFS given the historical and continuing challenges in valuing trades and
          documenting that trades were received by the stations.

       Grantee Responses

In response to the draft report all six grantees either commented on the findings or the
recommendations. One station disagreed that its trade for hoodies and T-shirts was
unallowable NFFS because the station had the intention of purchasing this clothing. The
station further stated that the trade was not used for promotional purposes and that the
clothing was not given to the general public but used only for membership purposes.

Three grantees specifically agreed with recommendation 3a to clarify in-kind donations
documentation. One grantee suggested expanding the Guidelines to allow additional forms
of support to evidence (existence), to include invoices, receiving reports, electronic
communications, and similar documentation. One grantee agreed that valuation was difficult
and explained that it was a common occurrence for a station and donor to not agree on the
valuation. The grantee suggested the Guidelines be changed to permit the station to assign a
value they believe best represents the fair value, even when those values differ from the
donor. One grantee agreed with recommendation 3c that CPB should re-evaluate the
requirement that donated items would “need to be purchased” to claim as NFFS. Finally, the
same grantee disagreed with recommendation 4 to evaluate the practicality of continuing to
allow stations to claim in-kind trades and said that in-kind trades provide great value to
stations and should be included in NFFS.




                                               11
        OIG Review and Comment

Based on new documentation provided by three grantees for in-kind trades since issuance of
the draft report, we reduced questioned NFFS to $413,569 and the corresponding estimated
CSG over-payment to $29,510 in the body of the report. Additionally, we revised
recommendation 2. Since recommendations 1–4 were directed to CPB management, they
remain unresolved pending CPB’s management decision.

The responses received provide further examples of the confusion officials have in
interpreting and applying CPB’s in-kind guidelines regarding exclusions of promotional
items and the adequacy of invoices to document in-kind trades received.

Questionable Underwriting

        Summary

Our testing of 149 underwriting transactions found 17 questionable transactions (11 percent) that
caused stations to report $257,477 of ineligible NFFS. This will result in overpayments of FY
2015 CSG funds estimated at $16,657. We attribute the overpayments to a lack of compliance
with CPB’s Guidelines for recording and reporting NFFS regarding eligible sources, third party
and presenting station fees. Additionally, we found that additional policy clarification is
warranted to address underwriting received by third parties for the benefit of public broadcasters.
We believe this is potentially a growing issue as more collaborative fundraising initiatives are
undertaken by stations, e.g., using National Public Media’s (NPM) services.3

                                        Underwriting Contributions

                                                      Number         Questionable        Potential CSG
                     Category                       Transactions       NFFS              Overpayments
    Payment by ineligible source                         1                  $179,354             $10,967
    Reporting gross ad agency receipts instead of
    net funds received by the station                    15                   63,123               3,860
    Presenting Fees                                       1                   15,000               1,830
                        Total                            17                 $257,477             $16,657

        Payment by Ineligible Source

One underwriting transaction was for payments of $179,354 received from NPR for referring
a local insurance company to NPR to become a national underwriter. Under this
arrangement, no local underwriting credits were aired for the insurance company by the
station. We consider this transaction to be a payment under CPB’s guidelines that does not
qualify as NFFS because of the source of the payment. Neither NPR nor the insurance


3
  NPM’s website states, “National Public Media is a subsidiary of National Public Radio (NPR), owned in
partnership with PBS and WGBH, the largest producer in public television. We are a corporate sponsorship sales
team for all NPR network stations, PBS stations and the digital assets of NPR and PBS.”


                                                       12
company meets the NFFS source criteria for payments (state and local governments and
educational institutions).

CPB excluded public broadcasting entities as eligible sources:

    Source: The universe of eligible sources for contributions is relatively large: any source
    except the federal government or another public broadcasting entity, while the universe
    of eligible payments in exchange transactions is relatively small: only eligible sources are
    state and local governments and educational institutions.

CPB Financial Reporting Guidelines, Section 2.3.2 NFFS Criteria, Interpretations

Discussion with station and NPR officials indicated that when this program was set-up neither
party considered that how this arrangement was designed and implemented would affect the
station’s reporting of NFFS.

        Reporting Third Party Fees as NFFS

Our testing of underwriting found 15 transactions at one station that claimed contributions of
$63,1234 as NFFS even though the funds were not remitted to the station. As is standard
practice, the ad agencies (third party recipient) retained its fees and remitted the balance of the
donors’ contributions to the station. In other words, the station did not take constructive receipt
of the $63,123 in fees retained by the ad agencies.

Station officials said it records underwriting support at full value (i.e., gross) and reports this
amount as NFFS. They report underwriting commissions (internal and external) separately as
fundraising expenses. Thus, it does not reduce the station’s NFFS by the amount of the cost of
sales. Other stations in our audit who dealt with ad agencies reported their NFFS net of ad
agency fees.

Regarding third party recipients CPB requires “constructive receipt” of contributions by a station
to claim NFFS.

    Generally, contributions or payments received in part or in whole by third parties for the
    benefit of the public broadcaster but for which the public broadcaster does not take
    constructive receipt will neither meet financial statement revenue recognition criteria nor
    NFFS criteria.

Guidelines, Section 2.3.2 Interpretations, Recipient

CPB’s policy guidance does not define constructive receipt or specifically address how ad
agency fees need to be addressed when reporting NFFS. However, it is our understanding CPB
intended to limit NFFS to the funds received by a station. While CPB’s Guidelines state that

4
 The $63,123 in overstated NFFS was based on the amount sampled. For the fiscal year, the total value of these 15
underwriting agreements overstated NFFS by $136,039.


                                                       13
only the funds a station takes constructive receipt of can be claimed as NFFS, the Guidelines
need to provide further guidance, i.e., what is meant by constructive receipt, to ensure
consistency in reporting. Consistent reporting by the stations provides for the equitable
distribution of future CSG funds.

CPB does provide guidance on handling auctions and other special events that similarly have
third party costs associated with receiving the donor’s contribution. CPB requires that the
expenses incurred to receive these contributions be deducted from NFFS, no matter how they are
treated for financial reporting purposes. In our judgment, ad agency fees should be treated
similarly to auctions and special fund raising activities. Thus, the ad agency fees should be
deducted from reported NFFS.

Based on CPB’s Guidelines we questioned $63,123 for underwriting claimed as NFFS.
Additionally, CPB needs to revise it Guidelines to ensure consistent reporting of funds
received from third party recipients.

       Presenting Station Fees

Our testing of underwriting also found one transaction, valued at $15,000, for presenting fees
paid to a station by a producer. CPB’s Principles of Accounting explicitly state that presenting
fees are an exchange transaction and therefore ineligible as NFFS. However, CPB’s Guidelines
do not explicitly discuss presenting fees.

CPB’s Principles of Accounting state that:

   “Presenting Station” Fees for Introducing Programs into Public Broadcasting
   Distribution: Contribution or Exchange Transactions?

   A public broadcasting entity sometimes charges an independent program producer a fee
   for introducing a program into distribution among public broadcasters by acting, for
   example as the “presenting station” in the PBS National Program Service.

   Regardless whether such a fee is charged directly to, and paid directly by, the
   independent program producer, or is simply retained by the public broadcasting entity
   from assets that the public broadcaster may have solicited or received from third-party
   underwriters on the program producer’s behalf, the fee that is received or retained for
   introducing the program into public broadcasting distribution represents an exchange
   transaction, and not a contribution.

CPB’s Application of Principles of Accounting and Financial Reporting to Public
Telecommunications Entities, May 2005 Edition, Section 3.3 Contributions – Identifying a
Contribution/Exchange Transaction.

In this case the exchange transaction was from a producer, who was not a qualifying source
(state or local government or educational institution). Discussion with station officials indicated




                                                14
that they were unaware that presenting fees were ineligible for NFFS. As a result, we have
questioned $15,000 in underwriting.

                                *     *     *    *     *     *     *

To summarize we questioned $257,477 reported as NFFS for underwriting for 11 percent of the
transactions tested. This amount will result in estimated FY 2015 CSG overpayments of
$16,657. Additionally, CPB needs to clarify its policy for recognizing donations received by
third parties for the benefit of public broadcasting stations, as well as its guidance regarding
presenting fees.

       Recommendations

We recommend CPB officials:

       5) require stations to submit revised FY 2013 AFRs adjusting overstated NFFS per
          Exhibits C.
       6) reduce FY 2015 CSG payments based on receipt of revised FY 2013 AFRs and
          redistribute estimated overpayments of $16,657.
       7) clarify the current Guidelines to:
          a) better explain how to handle donations received by third parties for the benefit
              of public broadcasting stations, including constructive receipt; and
          b) incorporate the exclusion of presenting fees as NFFS consistent with the
              guidance in CPB’s Application of Principles of Accounting and Financial
              Reporting To Public Telecommunications Entities, May 2005 Edition.

       Grantee Responses

In response to the draft report, three grantee’s commented on the underwriting finding or
recommendations. One grantee acknowledged that documentation describing the Collaborative
Underwriting Program with NPR was not available. The station and NPR were drafting a formal
legal agreement that will detail the exact nature and substance of the transaction. The structure
of the agreement shall be retroactive and cover all payments. NPR was taking the lead on this
issue and is seeking clarification from CPB’s Grants Administration.

One grantee agreed more specific guidance was needed for third party fees in recommendation
7a. It requested that constructive receipt not be applied to underwriting. It further stated that by
not reporting gross underwriting and expensing third party fees understates a station’s
fundraising expenses. It believes reporting third party fees as an expense provides the most
consistent and equitable NFFS treatment for stations. Excluding third party fees from NFFS
applies a bias toward stations that choose to cultivate underwriting with an internal fundraising
team versus stations that choose to engage external agencies to cultivate underwriting.
Additionally, applying the constructive receipt concept to third party fees may also encourage
stations to engage agencies with creative payment terms to avoid the constructive receipt
treatment and the reduction in NFFS reporting.




                                                 15
Two grantees agreed with recommendation 7b to incorporate the exclusion of presenting fees in
CPB’s financial reporting guidelines.

       OIG Review and Comment

Based on the grantees’ responses, we did not change our finding and recommendations on
underwriting. Recommendations 5–7 were directed to CPB management and remain
unresolved pending CPB’s management decision.

With regard to the grantee’s response outlining its future plans for the payments it receives from
NPR, we note that the station would have to air local underwriting credits for these payments to
qualify as NFFS.

Regarding the grantee’s request that constructive receipt not be applied to underwriting and
argument that not reporting gross underwriting and expensing third party fees understates a
station’s fundraising expenses, we acknowledge that CPB’s Guidelines on third party recipients
needs to be clarified. CPB’s more specific guidance on auctions and special events require all
third party costs associated with the auction or special event be excluded from NFFS, no matter
how they are treated in the financial statements. In contrast, the third party recipient guidance
under Section 2.3.2 is less specific and has led to varying interpretations by the stations tested.
One station reported gross underwriting receipts as NFFS, without deducting the direct costs
associated with the fundraising (ad fees). This arrangement does not constitute constructive
receipt under Section 2.3.2 nor does it deduct the expense of the fundraising from NFFS, as CPB
specifically requires for other fundraising activities. Therefore, we find that ad agency fees
should have been excluded from NFFS and have not changed the questionable NFFS finding for
third party recipient fees.




                                                16
                                                                                      Exhibit A

                                   Scope and Methodology

The objectives of our audit are to determine whether KCRW-FM, ideastream® (WVIZ-TV and
WCPN-FM), KLRU-TV, KPCC-FM, KOCE-TV, and Brigham Young University Broadcasting
(KBYU-TV and KBYU-FM) reported underwriting and NFFS in-kind contributions as NFFS in
accordance with CPB’s Guidelines for their respective FY 2013 reporting periods. The scope of
the examination included reviews and tests of the financial information reported by the stations
on their respective FY 2013 Annual Financial Reports (AFRs), Schedule A, Line 8.1, A,
Foundation and Nonprofit Associations, Program and production underwriting, Schedule A, Line
9.1, A, Business and Industry, Program and production underwriting, and Schedule C, Line 4,
Total in-kind contributions – services and other assets eligible as NFFS.

Our tests included verifying the information referenced above to the general ledger and audited
financial statements. We also reviewed underwriting and in-kind trade agreements, reports of
underwriting credit aired for donors, documentation of in-kind goods and services delivered, and
records of donor underwriting payments received by the stations. We judgmentally selected 78
in-kind contributions totaling $5,830,714 of $7,098,238 reported on the AFRs. We also
judgmentally selected 149 underwriting transactions totaling $3,388,529 of $31,184,478 reported
on the AFRs.

We also reviewed corporate accounting practices for recording and reporting underwriting and
in-kind contributions. We interviewed station officials and their independent public accountants
(IPA). We reviewed the IPAs work related to financial reporting, as well as testing underwriting
and in-kind contributions for the IPAs’ financial statement and attestation work.

We gained an understanding of internal controls over the preparation of AFRs, cash receipts, and
cash disbursements. We used this information to assist in planning our substantive tests.

Our fieldwork was conducted from March 2014 through August 2014. Our audit was performed
in accordance with the Government Auditing Standards for performance audits.




                                               17
                                                                                                                                                        Exhibit B

                                    Schedule of Questionable In-kind NFFS and Potential CSG Overpayments


                                                         Questionable In-Kind
                                                                                                                                                         Potential
          Stations             Policy Exclusion                 Exchange              No Donor Stmt/Invoice     Total Questionable In-kind
                                                                                                                                                        CSG Over-
                           # Sampled   $ Questioned    # Sampled    $ Questioned     # Sampled   $ Questioned   # Sampled    $ Questioned     IRR*      Payments


    KCRW-FM                  2/20           $297,786                                                               2/20           $297,786   6.1146%       $18,209
    ideastream (WVIZ-
    TV)                                                  2/65              $31,125                                 2/6             $31,125   12.1999%       $3,797
    ideastream (WCPN-
    FM)                                                                    $10,375                                                 $10,375   6.1146%          $634
    KLRU-TV                                                                             1/9            $7,570      1/9              $7,570   12.1999%         $924
    KPPC-FM                                                                            3/20            36,021      3/20            $36,021   6.11469%       $2,203
    KOCE-TV                  2/20            $24,292                                   2/20            $6,400      4/20            $30,692   12.1999%       $3,744
    KBYU (TV & Radio)                                                                                              0/3                  $0                      $0


    Questionable NFFS        4/78           $322,078     2/78              $41,500     6/78           $49,991     12/78           $413,569                 $29,510


    Sampled Transactions                                                                                                        $5,830,714


         Percentage             5.1%                       2.6%                          7.7%                       15.4%            7.1%

*Calculated based on applying CPB’s FY 2014 Incentive Rates of Return for TV and Radio per Exhibits B and C




5
    We tested six in-kind transactions, these transactions applied to both radio and TV


                                                                                       18
                                                                                                                                                              Exhibit C

                            Schedule of Questionable Underwriting NFFS and Potential CSG Overpayments


                                                       Questionable Underwriting                                                                                Potential
                                                                                                                         Total Questionable                    CSG Over-
      Stations                   Payment              Gross/Net Ad Agency Fees            Presenting Fees                  Underwriting             IRR*       Payments
                       # Sampled     $ Questioned     # Sampled   $ Questioned     # Sampled       $ Questioned       # Sampled   $ Questioned


KCRW-FM                                                                                                                 0/20                  $0   6.1146%             $0
ideastream (WVIZ-
TV)                                                                                                                     0/14                  $0   12.1999%            $0
ideastream (WCPN-
FM)                      1/15              $179,354                                                                     1/15          $179,354     6.1146%        $10,967
KLRU-TV                                                                                                                 0/20                  $0   6.1146%             $0
KPCC-FM                                                15/20            $63,123                                         15/20          $63,123     6.1146%         $3,860
KOCE-TV                                                                              1/20                   $15,000     1/20           $15,000     12.19995        $1,830
KBYU (TV & Radio)                                                                                                       0/40                  $0                       $0


Questionable NFFS        1/149             $179,354    15/149           $63,123      1/149                  $15,000    17/149         $257,477                    $16,657


Sampled Transactions                                                                                                                 $3,388,829


     Percentage             0.7%                         10.1%                            0.7%                           11.4%            7.6%

*Calculated based on applying CPB’s FY 2014 Incentive Rates of Return for TV and Radio per Exhibits B and C




                                                                                     19
